BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                    Financial Statements

                December 31, 2006 and 2005

         (With Independent Auditors’ Report Thereon)
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                          Independent Auditors’ Report


To the Board of Governors of the Federal Reserve System:

We have audited the accompanying balance sheets of the Board of Governors of the Federal Reserve
System (the Board) as of December 31, 2006 and 2005, and the related statements of revenues and
expenses and changes in cumulative results of operations, and cash flows (hereinafter referred to as
“financial statements”) for the years then ended. These financial statements are the responsibility of the
Board’s management. Our responsibility is to express an opinion on these financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audits to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of the Board’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Board of Governors of the Federal Reserve System, as of December 31, 2006 and
2005, and the results of its operations, and its cash flows, for the years then ended, in conformity with U.S.
generally accepted accounting principles.

As discussed in Note 3 to the financial statements, in 2006, the Board adopted the provisions of the
Financial Accounting Standard Board Statement No. 158, Employers’ Accounting for Defined Benefit
Pension and Other Postretirement Plans.

In accordance with Government Auditing Standards, we have also issued our reports dated April 17, 2007,
on our consideration of the Board’s internal control over financial reporting and our tests of its compliance
with certain provisions of laws, regulations, contracts, and other matters. The purpose of those reports is to
describe the scope of our testing of internal control over financial reporting and compliance and the results
of that testing, and not to provide an opinion on the internal control over financial reporting or on
compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




April 17, 2007



                                 KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                 a member of KPMG International, a Swiss cooperative.
                     BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

                                                    BALANCE SHEETS


                                                                                                  As of December 31,
                                        ASSETS                                                 2006               2005

CURRENT ASSETS
   Cash                                                                                   $    60,030,706    $    45,970,435
   Accounts receivable                                                                          2,625,907          3,081,520
   Prepaid expenses and other assets                                                            4,260,507          2,992,412
        Total current assets                                                                   66,917,120         52,044,367

NONCURRENT ASSETS
   Property and equipment, net (Note 4)                                                       151,205,386        155,441,553
        Total noncurrent assets                                                               151,205,386        155,441,553

          Total assets                                                                    $   218,122,506    $   207,485,920



           LIABILITIES AND CUMULATIVE RESULTS OF OPERATIONS

CURRENT LIABILITIES
   Accounts payable and accrued liabilities                                               $    10,950,470    $    16,906,350
   Accrued payroll and related taxes                                                            5,421,666          4,860,572
   Accrued annual leave                                                                        16,334,512         15,456,484
   Capital lease payable (current portion)                                                        327,663            270,167
   Unearned revenues and other liabilities                                                        366,304            783,711
        Total current liabilities                                                              33,400,615         38,277,284

LONG-TERM LIABILITIES
   Capital lease payable (non-current portion)                                                    108,755            406,188
   Accumulated retirement benefit obligation (Note 5)                                           1,354,662            813,497
   Accumulated postretirement benefit obligation (Note 6)                                       8,111,829          6,237,290
   Accumulated postemployment benefit obligation (Note 7)                                       6,515,301          5,111,365
        Total long-term liabilities                                                            16,090,547         12,568,340

          Total liabilities                                                                    49,491,162         50,845,624

CUMULATIVE RESULTS OF OPERATIONS
   Working capital                                                                             33,844,168         14,037,250
   Unfunded long-term liabilities                                                             (14,325,986)       (12,162,152)
   Net investment in property and equipment                                                   150,768,968        154,765,198
   Accumulated other comprehensive income (loss) (Note 8)                                      (1,655,806)                 -
         Total cumulative results of operations                                               168,631,344        156,640,296

          Total liabilities and cumulative results of operations                          $   218,122,506    $   207,485,920




                                        See accompanying notes to financial statements.
                                                             2
                   BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

                          STATEMENTS OF REVENUES AND EXPENSES
                     AND CHANGES IN CUMULATIVE RESULTS OF OPERATIONS



                                                                                            For the years ended December 31,
                                                                                               2006                2005
BOARD OPERATING REVENUES
   Assessments levied on Federal Reserve Banks for Board
        operating expenses and capital expenditures                                     $    301,013,500     $    265,742,100
   Other revenues (Note 9)                                                                     8,508,949            8,520,342

          Total operating revenues                                                           309,522,449          274,262,442

BOARD OPERATING EXPENSES
   Salaries                                                                                  182,239,595          174,523,825
   Retirement and insurance                                                                   35,853,297           31,847,951
   Contractual services and professional fees                                                 23,944,564           24,695,564
   Depreciation, amortization, and net losses on disposals                                    13,058,667           12,954,506
   Utilities                                                                                   9,185,840            9,065,329
   Travel                                                                                      8,820,503            7,613,280
   Software                                                                                    6,637,765            6,052,617
   Postage and supplies                                                                        4,560,368            7,169,829
   Repairs and maintenance                                                                     2,634,459            3,361,179
   Printing and binding                                                                        1,505,470            1,973,594
   Other expenses (Note 9)                                                                     7,435,067            7,486,158

          Total operating expenses                                                           295,875,595          286,743,832

RESULTS OF OPERATIONS                                                                          13,646,854         (12,481,390)

ISSUANCE AND REDEMPTION OF FEDERAL RESERVE NOTES
    Assessments levied on Federal Reserve Banks for currency costs                           491,962,202          477,087,471
    Expenses for currency printing, issuance, retirement and shipping                        491,962,202          477,087,471

CURRENCY ASSESSMENTS OVER (UNDER) EXPENSES                                                              -                      -

TOTAL RESULTS OF OPERATIONS                                                                    13,646,854         (12,481,390)

CUMULATIVE RESULTS OF OPERATIONS, Beginning of year                                          156,640,296          169,121,686

OTHER COMPREHENSIVE INCOME
   Adjustment to initially apply FASB Statement No.158 (Note 8)                                (1,655,806)                     -
        Total Other Comprehensive Income                                                       (1,655,806)                     -

CUMULATIVE RESULTS OF OPERATIONS, End of year                                           $    168,631,344     $    156,640,296




                                      See accompanying notes to financial statements.
                                                           3
                    BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

                                         STATEMENTS OF CASH FLOWS



                                                                                            For the years ended December 31,
                                                                                               2006                2005
CASH FLOWS FROM OPERATING ACTIVITIES
   RESULTS OF OPERATIONS                                                                $      13,646,854    $    (12,481,390)
   Adjustments to reconcile results of operations to net cash
      provided by (used in) operating activities:
        Depreciation and net losses on disposals                                               13,058,667          12,954,506
        Increase in assets:
             Accounts receivable, prepaid expenses and other assets                              (812,482)           (362,385)
        Increase (decrease) in liabilities:
             Accounts payable and accrued liabilities                                          (5,955,880)          3,014,489
             Accrued payroll and related taxes                                                    561,094             308,533
             Accrued annual leave                                                                 878,028           1,260,574
             Unearned revenues and other liabilities                                             (417,407)            316,047
             Accumulated retirement benefit obligation                                            541,165             219,328
             Accumulated postretirement benefit obligation                                      1,874,539             447,724
             Accumulated postemployment benefit obligation                                      1,403,936            (197,200)
        Accumulated other comprehensive income                                                 (1,655,806)                  -
                 Net cash provided by operating activities                                     23,122,708           5,480,226

CASH FLOWS FROM INVESTING ACTIVITIES
   Proceeds from disposals                                                                          7,212               2,850
   Capital expenditures                                                                        (8,829,712)        (19,370,223)
                Net cash used in investing activities                                          (8,822,500)        (19,367,373)

CASH FLOWS FROM FINANCING ACTIVITIES
   Capital lease payments                                                                        (239,937)           (249,710)
                 Net cash used in financing activities                                           (239,937)           (249,710)

NET INCREASE (DECREASE) IN CASH                                                                14,060,271         (14,136,857)

CASH BALANCE, Beginning of year                                                                45,970,435          60,107,292

CASH BALANCE, End of year                                                               $      60,030,706    $     45,970,435




                                      See accompanying notes to financial statements.
                                                           4
            BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                      NOTES TO FINANCIAL STATEMENTS
          AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005



(1) STRUCTURE

   The Federal Reserve System was established by Congress in 1913 and consists of the Board of
   Governors (Board), the Federal Open Market Committee, the twelve regional Federal Reserve Banks, the
   Federal Advisory Council, and the private commercial banks that are members of the System. The Board,
   unlike the Reserve Banks, was established as a federal government agency and is supported by
   Washington DC based staff numbering approximately 1,800, as it carries out its responsibilities in
   conjunction with other components of the Federal Reserve System.


   The Board is required by the Federal Reserve Act to report its operations to the Speaker of the House of
   Representatives. The Act also requires the Board, each year, to order a financial audit of each Federal
   Reserve Bank and to publish each week a statement of the financial condition of each such Reserve Bank
   and a consolidated statement for all of the Reserve Banks. Accordingly, the Board believes that the best
   financial disclosure consistent with law is achieved by issuing separate financial statements for the Board
   and for the Reserve Banks. Therefore, the accompanying financial statements include only the results of
   operations and activities of the Board. Combined financial statements for the Federal Reserve Banks are
   included in the Board’s annual report to the Speaker of the House of Representatives.


(2) OPERATIONS AND SERVICES

   The Board’s responsibilities require thorough analysis of domestic and international financial and
   economic developments. The Board carries out those responsibilities in conjunction with other
   components of the Federal Reserve System. The Board also supervises and regulates the operations of
   the Federal Reserve Banks, exercises broad responsibility in the nation’s payments system, and
   administers most of the nation’s laws regarding consumer credit protection. Policy regarding open market
   operations is established by the Federal Open Market Committee. However, the Board has sole authority
   over changes in reserve requirements, and it must approve any change in the discount rate initiated by a
   Federal Reserve Bank.

   The Board also plays a major role in the supervision and regulation of the U.S. banking system. It has
   supervisory responsibilities for state-chartered banks that are members of the Federal Reserve System,
   bank holding companies, foreign activities of member banks, and U.S. activities of foreign banks.




                                                         5
            BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                      NOTES TO FINANCIAL STATEMENTS
          AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


(3) SIGNIFICANT ACCOUNTING POLICIES

   Basis of Accounting - The financial statements have been prepared on the accrual basis of accounting.

   Revenues - Assessments for operating expenses and additions to property are based on expected cash
   needs.


   Issuance and Redemption of Federal Reserve Notes - The Board incurs expenses and assesses the
   Federal Reserve Banks for currency printing, issuance, retirement, and shipping of Federal Reserve
   Notes. These assessments and expenses are separately reported in the statements of revenues and
   expenses because they are passed through the Board account and are not Board operating transactions.


   Property, Equipment, and Software - The Board's property, buildings, equipment, and software are stated
   at cost less accumulated depreciation and amortization. Depreciation and amortization is calculated on a
   straight-line basis over the estimated useful lives of the assets, which range from 3 to 10 years for
   furniture and equipment, 10 to 50 years for building equipment and structures, and 2 to 10 years for
   software. Upon the sale or other disposition of a depreciable asset, the cost and related accumulated
   depreciation or amortization are removed from the accounts and any gain or loss is recognized.


   Art Collections - The Board has collections of works of art, historical treasures, and similar assets. These
   collections are maintained and held for public exhibition in furtherance of public service. Proceeds from
   any sales of collections are used to acquire other items for collections. As permitted by Statement of
   Financial Accounting Standards Number 116, Accounting for Contributions Received and Contributions
   Made , the cost of collections purchased by the Board is charged to expense in the year purchased and
   donated collection items are not recorded. The value of the Board's collections has not been determined.


   Estimates - The preparation of financial statements in conformity with accounting principles generally
   accepted in the United States requires management to make estimates and assumptions that affect the
   reported amounts of assets and liabilities and the disclosure of contingent assets and liabilities at the date
   of the financial statements and the reported amounts of revenues and expenses during the reporting
   period. Actual results could differ from those estimates.


   Reclassifications - Certain 2005 amounts have been reclassified to conform with the 2006 presentation.


   Implementation of FASB Statement No. 158, Employers’ Accounting for Defined Benefit Pension and
   Other Postretirement Plans - The Board initially applied the provisions of FASB Statement No. 158,
   Employers’ Accounting for Defined Benefit Pension and Other Postretirement Plans, at December 31,
   2006. This accounting standard requires recognition of the overfunded or underfunded status of a defined
   benefit postretirement plan in the Balance Sheets, and recognition of changes in the funded status in the
   years in which the changes occur through comprehensive income. The transition rules for implementing
   the standard require applying the provisions as of the end of the year of initial implementation with no
   retrospective application.




                                                          6
           BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                     NOTES TO FINANCIAL STATEMENTS
         AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


(4) PROPERTY AND EQUIPMENT

  The following is a summary of the components of the Board's property and equipment, at cost, net of
  accumulated depreciation and amortization.
                                                                           As of December 31,
                                                                        2006              2005
       Land                                                        $ 18,640,314       $ 18,640,314
       Buildings and improvements                                    147,504,169        135,152,735
       Furniture and equipment                                         47,271,434        39,926,270
       Software in use                                                 13,681,508        12,415,000
       Software in process                                                941,912           575,050
       Construction in process                                            360,966        13,928,149
                                                                     228,400,304        220,637,518
       Less accumulated depreciation and amortization                 (77,194,918)      (65,195,965)
       Property and equipment, net                                 $ 151,205,386      $ 155,441,553


  Furniture and equipment includes $1,230,000 each year for capitalized leases as of December 31, 2006
  and 2005. Accumulated depreciation includes $867,000 and $612,000 for capitalized leases as of
  December 31, 2006 and 2005, respectively. The Board paid interest related to these capital leases in the
  amount of $54,000 and $83,000 for 2006 and 2005, respectively.


  Construction in process includes costs incurred in 2006 and 2005 for long-term security projects and
  building enhancements.

  The future minimum lease payments required under the capital leases and the present value of the net
  minimum lease payments as of December 31, 2006, are as follows:

                                                                       Year Ending
                                                                                              Amount
                                                                       December 31
                                                                          2007            $      463,491
                                                                          2008                   138,279
                                                                          2009                         -
       Total minimum lease payments                                                              601,770
             Less: Amount representing maintenance included in total amounts above              (130,540)
       Net minimum lease payments                                                                471,230
             Less: Amount representing interest                                                  (34,812)
       Present value of net minimum lease payments                                               436,418
             Less: Current maturities of capital lease obligations                              (327,663)
       Long-term capital lease obligations                                                $      108,755




                                                      7
           BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                     NOTES TO FINANCIAL STATEMENTS
         AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005



(5) ACCUMULATED RETIREMENT BENEFITS

  The following information provides disclosure requirements contained in Statement of Financial
  Accounting Standards No.132, Employers' Disclosures about Pensions and Other Postretirement
  Benefits .

  Substantially all of the Board's employees participate in the Retirement Plan for Employees of the Federal
  Reserve System (System Plan). The System Plan is a multi-employer plan which covers employees of
  the Federal Reserve Banks, the Board, and the Office of Employee Benefits. No separate accounting is
  maintained of assets contributed by the participating employers. The Federal Reserve Bank of New York
  acts as a sponsor of the System Plan, and the costs associated with the Plan are not redistributed to
  other participating employers.


  Employees of the Board who became employed prior to 1984 are covered by a contributory defined
  benefits program under the System Plan. Employees of the Board who became employed after 1983 are
  covered by a non-contributory defined benefits program under the System Plan. Contributions to the
  System Plan are actuarially determined and funded by participating employers. Based on actuarial
  calculations, it was determined that employer funding contributions were not required for the years 2006
  and 2005, and the Board was not assessed a contribution for these years. Because the plan is part of a
  multi-employer plan, information as to vested and nonvested benefits, as well as plan assets, as it relates
  solely to the Board, is not readily available.


  Effective January 1, 1996, Board employees covered under the System Plan are also covered under a
  Benefits Equalization Plan (BEP). Benefits paid under the BEP are limited to those benefits that cannot
  be paid from the System Plan due to limitations imposed by Sections 401(a)(17), 415(b) and 415(e) of the
  Internal Revenue Code of 1986. Activity for the BEP for 2006 and 2005 is summarized in the following
  table:


                                                                              2006                2005
  Change in Projected Benefit Obligation
      Benefit obligation at beginning of year                            $      536,339      $     140,953
      Service cost                                                              185,483            193,209
      Interest cost                                                              45,004             35,964
      Plan participants' contributions                                                -                  -
      Plan amendments                                                                 -                  -
      Actuarial (gain)/loss                                                     596,114            168,027
      Benefits paid                                                              (8,278)            (1,814)
      Benefit obligation at end of year                                  $    1,354,662      $     536,339




                                                        8
         BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                   NOTES TO FINANCIAL STATEMENTS
       AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


                                                                2006              2005
Change in Plan Assets
    Fair value of plan assets at beginning of year          $            -    $          -
    Actual return on plan assets                                         -               -
    Employer contributions                                           8,278           1,814
    Plan participants' contributions                                     -               -
    Benefits paid                                                   (8,278)         (1,814)
    Fair value of plan assets at end of year                $            -    $          -

Reconciliation of Funded Status at End of Year
    Funded status                                           $   (1,354,662)   $   (536,339)
    Unrecognized net actuarial (gain)/loss                         580,386         (15,728)
    Unrecognized prior service cost                               (247,417)       (261,430)
    Unrecognized net transition obligation                               -               -
    Prepaid/(Accrued) pension cost                          $   (1,021,693)   $   (813,497)

Amounts recognized in the financial statements consist of
    Prepaid benefit cost                                    $            -    $          -
    Accrued benefit liability                                   (1,021,693)       (813,497)
    Intangible asset                                                     -               -
    Accumulated other comprehensive income                        (332,969)              -
    Net amount recognized                                   $   (1,354,662)   $   (813,497)

Information for pension plans with an accumulated benefit
obligation in excess of plan asset:
     Projected benefit obligation                           $   1,354,662     $    536,339
     Accumulated benefit obligation                         $     546,854     $    278,252

Weighted-average assumptions used to determine benefit
obligation as of December 31
     Discount rate                                                  5.75%            5.75%
     Rate of compensation increase                                  4.50%            4.50%

Components of Net Periodic Benefit Cost
   Service cost - benefits earned during the period         $     185,483     $    193,209
   Interest cost on projected benefit obligation                   45,004           35,964
   Expected return on plan assets                                       -                -
   Amortization of prior service cost                             (14,013)         (14,013)
   Amortization of (gains)/losses                                       -            5,982
   Amortization of initial (asset)/obligation                           -                -
   Net periodic benefit cost (credit)                       $     216,474     $    221,142




                                                      9
           BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                     NOTES TO FINANCIAL STATEMENTS
         AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


  Additional information:                                                     2006                2005
       Increase in minimum liability included in other
       comprehensive income                                              $             -     $             -

  Weighted-average assumptions used to determine net periodic
  benefit cost for years ended December 31
       Discount rate                                                              5.75%               5.75%
       Rate of compensation increase                                              4.50%               4.25%


  A relatively small number of Board employees participate in the Civil Service Retirement System (CSRS)
  or the Federal Employees' Retirement System (FERS). These defined benefit plans are administered by
  the U.S. Office of Personnel Management, which determines the required employer contribution levels.
  The Board's contributions to these plans totaled $334,000 and $324,000 in 2006 and 2005, respectively.
  The Board has no liability for future payments to retirees under these programs and is not accountable for
  the assets of the plans.


  Employees of the Board may also participate in the Federal Reserve System's Thrift Plan. Board
  contributions to members' accounts are based upon a fixed percentage of each member's basic
  contribution and were $8,964,000 and $8,617,000 in 2006 and 2005, respectively.



(6) ACCUMULATED POSTRETIREMENT BENEFITS

  The following information provides disclosure requirements contained in Statement of Financial
  Accounting Standards No.106, Employers' Accounting for Postretirement Benefits Other Than Pensions.

  The Board provides certain life insurance programs for its active employees and retirees. Activity for 2006
  and 2005 is summarized in the following table:

                                                                              2006                2005
  Change in Benefit Obligation
      Benefit obligation at beginning of year                            $    8,273,831      $   8,404,551
      Service cost                                                              230,567            217,421
      Interest cost                                                             470,256            437,320
      Plan participants' contributions                                                -                  -
      Plan amendments                                                                 -           (196,970)
      Actuarial (gain)/loss                                                    (603,500)          (304,006)
      Benefits paid                                                            (259,325)          (284,485)
      Benefit obligation at end of year                                  $    8,111,829      $   8,273,831




                                                         10
         BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                   NOTES TO FINANCIAL STATEMENTS
       AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


                                                                   2006              2005
Change in Plan Assets
    Fair value of plan assets at beginning of year             $           -     $           -
    Actual return on plan assets                                           -                 -
    Employer contribution                                            259,325           284,485
    Plan participants' contributions                                       -                 -
    Benefits paid                                                   (259,325)         (284,485)
    Fair value of plan assets at end of year                   $           -     $           -

Reconciliation of Funded Status at End of Year
    Benefit obligations                                        $   (8,111,829)   $   (8,273,832)
    Unrecognized net actuarial (gain)/loss                                  -         2,145,920
    Unrecognized prior service cost                                         -          (109,378)
    Amount recognized at end of year                           $   (8,111,829)   $   (6,237,290)

Amounts recognized in the financial statements consist of
    Liability                                                  $   (8,111,829)   $            -
    Accrued benefit cost                                                    -        (6,237,290)
    Accumulated other comprehensive income                                  -                 -
    Net amount recognized                                      $   (8,111,829)   $   (6,237,290)



Amounts recognized in accumulated other comprehensive income
consist of:
     Net actuarial loss/(gain)                                 $   1,422,398                  -
     Prior service cost/(credit)                                     (99,560)                 -
     Transition obligation/(asset)                                         -                  -
     Deferred curtailment (gain)/loss                                      -                  -
                                                               $   1,322,838     $            -

Expected Cash Flows
    Expected employer contributions:
         2007                                                  $     274,901

Expected benefit payments:
          2007                                                 $     274,901
          2008                                                       296,030
          2009                                                       325,793
          2010                                                       350,050
          2011                                                       364,265
          2012-2016                                                2,132,108




                                                     11
           BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                     NOTES TO FINANCIAL STATEMENTS
         AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


  The liability and costs for the postretirement benefit plan were determined using discount rates of 5.75
  percent as of December 31, 2006 and 2005. Unrecognized losses of $2,145,920 as of December 31,
  2005 result from changes in the discount rate used to measure the liabilities. The assumed salary trend
  rate for measuring the increase in postretirement benefits related to life insurance was an average of 4.50
  percent.

  The above accumulated postretirement benefit obligation is related to the Board-sponsored life insurance
  programs. The Board has no liability for future payments to employees who continue coverage under the
  federally sponsored life and health programs upon retiring. Contributions for active employees
  participating in federally sponsored health programs totaled $9,607,000 and $8,933,000 in 2006 and
  2005, respectively.



(7) ACCUMULATED POSTEMPLOYMENT BENEFIT PLAN

  The following information provides disclosure requirements contained in Statement of Financial
  Accounting Standards No.112, Employers' Accounting for Postemployment Benefits .


  The Board provides certain postemployment benefits to eligible former or inactive employees and their
  dependents during the period subsequent to employment but prior to retirement. Costs were projected
  using the same discount rates as were used for projecting postretirement costs. The accrued
  postemployment benefit costs recognized by the Board for the years ended December 31, 2006 and 2005,
  were $1,963,000 and $155,800, respectively.



(8) ACCUMULATED OTHER COMPREHENSIVE INCOME

  Following is a reconciliation of beginning and ending balances of accumulated other comprehensive
  income.

                                                    Amount Related      Amount Related           Total
                                                      To Defined               To            Accumulated
                                                       Benefit          Postretirement           Other
                                                      Retirement         Benefits Other     Comprehensive
                                                        Plans            than Pensions      Income (Loss)
  Balance January 1, 2006                           $ (1,021,693)       $ (6,788,992)       $ (7,810,685)
  Adjustment to initially apply Statement No. 158         (332,969)          (1,322,837)        (1,655,806)
  Balance December 31, 2006                         $ (1,354,662)       $ (8,111,829)       $ (9,466,491)

  Additional detail regarding the classification of accumulated other comprehensive income is included in
  note 6.




                                                       12
           BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                     NOTES TO FINANCIAL STATEMENTS
         AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


(9) OTHER REVENUES AND OTHER EXPENSES

  The following are summaries of the components of Other Revenues and Other Expenses.

                                                                   For the years ended December 31,
                                                                        2006              2005
  Other Revenues
       Data processing revenue                                     $    4,180,692       $   3,788,217
       Rent                                                             2,450,576           2,433,833
       Subscription revenue                                               716,294             782,743
       Reimbursable services to other agencies                            599,827             664,755
       Board sponsored conferences                                              -             250,650
       Miscellaneous                                                      561,560             600,144
            Total other revenues                                   $    8,508,949       $   8,520,342

  Other Expenses
       Tuition, registration and membership fees                   $    2,676,871       $   2,573,028
       Contingency operations                                           1,087,429             956,476
       Public transportation subsidy                                      988,950             872,467
       Subsidies and contributions                                        706,497             656,150
       Meals and representation                                           529,557             518,640
       Equipment and facilities rental                                    393,122             336,342
       Administrative law judges                                          105,587             268,228
       Security investigations                                            236,448             184,880
       Former employee related payments                                    19,296             319,461
       Miscellaneous                                                      691,310             800,486
             Total other expenses                                  $    7,435,067       $   7,486,158




                                                   13
              BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                        NOTES TO FINANCIAL STATEMENTS
            AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


(10) COMMITMENTS AND CONTINGENCIES

   Leases
   The Board has entered into several operating leases to secure office, training and warehouse space for
   remaining periods ranging from one to four years. Minimum annual payments under the operating leases
   having an initial or remaining noncancelable lease term in excess of one year at December 31, 2006, are
   as follows:

                                   2007               $        176,807
                                   2008                        183,880
                                   2009                        191,235
                                   2010                        198,884
                                   2011                         84,218
                                                      $        835,024

   Rental expenses under the operating leases were $193,000 in 2006 and $157,000 in 2005.

   Commitments
   The Board has entered into an agreement with the Federal Deposit Insurance Corporation and the Office
   of the Comptroller of the Currency, through the Federal Financial Institutions Examination Council (the
   "Council") to fund a portion of enhancements and maintenance fees for a central data repository project
   through 2013. Estimated Board expense to support this effort is $7.5 million.

   Litigation
   The Board is subject to contingent liabilities which include litigation cases. These contingent liabilities
   arise in the normal course of operations and their ultimate disposition is unknown. Based on information
   currently available to management, it is management’s opinion that the expected outcome of these
   matters, individually or in the aggregate, will not have a materially adverse effect on the financial
   statements. Management believes the Board has substantial defenses and that the likelihood of an
   adverse judgment is remote.


   One action currently pending in U.S. District Court for the District of Columbia alleges discrimination on
   behalf of a class of African American secretaries at the Board under Title VII of the Civil Rights Act of
   1964, as amended. On January 31, 2007, the action was dismissed for failure to exhaust administrative
   remedies. The plaintiffs have moved to alter or amend judgment on this ruling; that motion is pending.
   Should the case be reinstated either as a result of the pending motion or following any appeal, the Board
   believes it has substantial defenses and intends to defend the case vigorously.


   Four additional actions are pending in the United States District Court for the District of Columbia under
   Title VII of the Civil Rights Act of 1964, as amended and/or the Age Discrimination in Employment Act. All
   four are believed to be without merit and are being vigorously contested.




                                                          14
             BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                       NOTES TO FINANCIAL STATEMENTS
           AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


   Five additional matters alleging employment discrimination are currently pending administrative resolution.
   One case is related to, and likely will be joined with, a case currently pending in district court. In that and
   another case there has not yet been an investigative report. Therefore, management is unable at this
   time to determine the potential for a materially adverse effect on the financial statements. Management
   believes that the likelihood of an unfavorable outcome in the remaining three cases is remote.



(11) FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

   The Board is one of the five member agencies of the Council, and currently performs certain management
   functions for the Council. The five agencies which are represented on the Council are the Board, Federal
   Deposit Insurance Corporation, National Credit Union Administration, Office of the Comptroller of the
   Currency, and Office of Thrift Supervision. The Board's financial statements do not include financial data
   for the Council. Activity related to the Board and Council for 2006 and 2005 is summarized in the
   following table:


                                                                                  2006                2005
   Board paid to the Council:
       Assessments for operating expenses of the Council                    $      109,760       $       83,811
       Central Data Repository                                                     740,003            1,096,062
       Uniform Bank Performance Report                                             204,617              202,666
             Total Board paid to the Council                                $    1,054,380       $    1,382,539

   Council paid to the Board:
       Data processing related services                                     $    3,429,499       $    3,572,816
       Administrative services                                                     183,000              175,000
             Total Council paid to the Board                                $    3,612,499       $    3,747,816

   Accounts receivable due from the Council                                 $      395,551       $      277,589
   Accounts payable due to the Council                                      $       54,870       $      104,864




                                                          15
            BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                      NOTES TO FINANCIAL STATEMENTS
          AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005


(12) FEDERAL RESERVE BANKS

   The Board performs certain functions for the Reserve Banks in conjunction with its responsibilities for the
   Federal Reserve System, and the Federal Reserve Banks provide certain administrative functions to the
   Board. Activity related to the Board and Reserve Banks for 2006 and 2005 is summarized in the following
   table:

                                                                               2006                2005
   Board paid to the Reserve Banks:
       Assessments for employee benefits                                  $    2,380,474      $   2,072,595
       Data processing and communication                                       2,161,298          2,106,850
       Contingency site                                                        1,087,429            956,476
             Total Board paid to the Reserve Banks                        $    5,629,201      $   5,135,921

   Reserve Banks paid to the Board:
       Assessments for currency costs                                     $ 491,962,202       $ 477,087,471
       Assessments for operating expenses of the Board                      301,013,500         265,742,100
       Data processing                                                          731,999             516,433
            Total Reserve Banks paid to the Board                         $ 793,707,701       $ 743,346,004

   Accounts receivable due from Federal Reserve Banks                     $     854,142       $     145,142
   Accounts payable due to Federal Reserve Banks                          $      12,417       $           -



(13) NONCASH FINANCING ACTIVITIES
   In 2005, the Board billed a federal government agency $1,096,557 for rent and leasehold improvements.
   In 2006, the federal government agency provided equipment, software, and services valued at $392,301
   to the Board and paid the balance of $704,256 in 2006. In 2006, the Board billed the same agency
   $143,772 for rent, and the agency provided telecommunication equipment and services valued at
   $124,720 to the Board and paid the balance of $19,052 in 2006.




                                                        16
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




             Independent Auditors’ Report on Internal Control over Financial Reporting


To the Board of Governors of the Federal Reserve System:

We have audited the balance sheets of the Board of Governors of the Federal Reserve System (the Board)
as of December 31, 2006 and 2005, and the related statements of revenues and expenses and changes in
cumulative results of operations, and cash flows (hereinafter referred to as “financial statements”) for the
years then ended, and have issued our report thereon dated April 17, 2007.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audits to obtain reasonable assurance about whether the financial statements are free of material
misstatement.

The management of the Board is responsible for establishing and maintaining effective internal control. In
planning and performing our 2006 audit, we considered the Board’s internal control over financial
reporting as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
financial statements. We limited our internal control testing to those controls necessary to achieve the
objectives described in Government Auditing Standards. The objective of our audit was not to express an
opinion on the effectiveness of the Board’s internal control over financial reporting. Accordingly, we do
not express an opinion on the effectiveness of the Board’s internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects the Board’s ability to initiate, authorize, record, process, or report financial data
reliably in accordance with generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of the Board’s financial statements that is more than inconsequential will not
be prevented or detected by the entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be prevented
or detected by the Board’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph above and would not necessarily identify all deficiencies in internal control that might be
significant deficiencies or material weaknesses.

In our 2006 audit, we noted a matter described in Exhibit I involving internal control over financial
reporting that we consider to be a significant deficiency. We believe that this significant deficiency is not a
material weakness. Exhibit II presents the status of the prior year finding.


                                                                        17
                                 KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                 a member of KPMG International, a Swiss cooperative.
The Board’s response to the findings identified in our audit is presented in the Exhibit I. We did not audit
the Board’s response and, accordingly, we express no opinion on it.

We noted certain additional matters that we have reported to the management of the Board in a separate
letter dated April 17, 2007.

This report is intended solely for the information and use of the Board’s management, the Office of
Inspector General, the U.S. Government Accountability Office, and the U.S. Congress and is not intended
to be and should not be used by anyone other than these specified parties.




April 17, 2007




                                                    18
                                                                                                             Exhibit I

                   BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                                               Significant Deficiency

                                                 December 31, 2006


Improvement is needed in Internal Controls over Financial Reporting

Management is responsible for developing and maintaining effective internal controls to provide reasonable
assurance that the Board has the ability to initiate, authorize, record, process, and report financial data reliably in
accordance with generally accepted accounting principles. Internal controls help ensure that reliable and timely
information is obtained, maintained, reported, and used for decision making.

Appropriate internal controls should be integrated into each policy and procedure established by the Board to
direct and guide its operations. Monitoring the effectiveness of internal controls should occur in the normal
course of business throughout the year. Periodic reviews, reconciliations, or comparisons of data should be
included as part of staff’s regularly assigned duties. In addition, periodic assessments should be integrated into
management’s continuous monitoring of internal controls to help provide assurance that weaknesses in the design
or operation of internal control, which could adversely affect the Board’s ability to meet its financial reporting
objectives, are prevented or detected in a timely manner.

Board management is committed to improving its internal control environment as demonstrated by its ability to
resolve prior year findings.

The following paragraphs discuss weaknesses noted in the Board’s internal control over financial reporting that
could adversely affect the Board’s ability to produce accurate and timely financial statements. None of these
deficiencies individually would be considered a significant deficiency. However, the combination of these
deficiencies is considered to be a significant deficiency.

Recording Accounts Payable, Accrued Liabilities, and Prepaid Expenses

During 2006, the Management Division identified and processed transactions and journal entries to reclassify/and
or correct several transactions that were initially coded to a different general ledger account or recorded in a
different accounting period. We noted that the original transactions were initially reviewed and approved by a
supervisor, and all the required changes were not identified during this initial review as follows.

    •   Two disbursements totaling $11,230, of the 115 disbursement transactions tested totaling $18,473,927,
        were initially recorded in different general ledger accounts or were 2007 transactions that were recorded
        as 2006 transactions. One transaction for $5,980 was identified and adjusted during management’s
        review prior to year end, and one transaction for $5,250 was corrected as a post closing entry.
    •   Two accounts payable transactions totaling $45,709, of the 21 accounts payable invoices tested totaling
        $2,969,595, were received in 2006 for services to be provided in 2007. These were initially recorded as
        accounts payable in 2006. Both transactions were corrected as a post closing entry.

    •   One prepaid expense totaling $11,927, of the 19 prepaid expenses tested totaling $1,758,579, was a 2007
        invoice that was paid in 2006 and was initially recorded as 2006 expense. This was subsequently
        identified and adjusted during management’s review prior to year end.




                                                        19                                                (Continued)
                                                                                                          Exhibit I

                   BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                                              Significant Deficiency

                                               December 31, 2006


We commend the Board for identifying most of these entries prior to year end. However, the Board should
strengthen its procedures for posting and reviewing all entries to ensure initial posting to the proper accounts and
accounting period.
Posting Accrued Annual Leave

We noted that the annual leave accrual was overstated by $301,600 at December 31, 2006, because the annual
leave report did not reflect the proper year end information for all employees. The Board subsequently recorded a
post closing entry to reflect the appropriate amounts.

Billing of Accounts Receivable

We noted that the Board did not record a year-end receivable from the Bank for International Settlement (BIS)
for $157,317 representing services performed in 2006. Although the invoice for the 2006 services was not
finalized, recorded, and submitted until 2007, this amount should have been recorded as a receivable at
December 31, 2006. As a result of our audit, the Board recorded a post closing entry for this amount.

Monitoring Miscellaneous Receivables

During our audit, we noted that the Board does not have specific policies and procedures for monitoring
miscellaneous receivables related to relocation expenses to determine if amounts are considered collectible and
appropriately recorded. As a result of our audit, the Board recorded post closing entries to write off three
accounts receivables amounting to $105,599 for relocation expenses that were not considered collectible.

Recording Property Transactions

During our audit of property and equipment, we noted that the Board inappropriately processed property and
equipment additions and adjustments as follows.

•   Two assets purchased for $113,016 in 2006 were recorded at an acquisition value of $109,259. As a result,
    the asset was overstated by $3,757.

•   Three assets valued at $329,375 were put into service with the incorrect in-service dates. As a result, the
    2006 depreciation expense was overstated by $25,700.

•   One asset was placed in service on March 1, 2006 for $811,756, but did not have any depreciation recorded
    in 2006. As a result, the Board’s depreciation expense was understated by $20,294.

•   Three adjustments related to 22 assets acquired via trade-in were overstated on the depreciation schedule in
    2005. As a result, depreciation for 2005 was overstated by $27,294 and correspondingly understated by the
    same amount in 2006.

During our physical inspection test work of property and equipment, we noted that one of the 22 items inspected,
valued at $76,744, was included on the asset listing for the Board’s contingency site, although it was physically



                                                      20                                               (Continued)
                                                                                                       Exhibit I

                  BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                                             Significant Deficiency

                                              December 31, 2006


located in the Board’s Washington, DC, facility. Our inspection also found that the asset tag number for one item
valued at $7,042 was not identified in the Board’s financial system.

Recording Financial Statement Disclosures

During our audit, we noted instances where the Board needs to improve its preparation and review process for
the financial statements as follows.

•   Assets traded in for other assets were incorrectly recorded as Proceeds from Disposals and Capital
    Expenditures in the Statement of Cash Flows. The entries, totaling $159,519, represent non-cash transactions
    and should not have been included in the Proceeds from Disposals or the Capital Expenditures sections of
    the Statement of Cash Flows.

•   In Footnote 4, Property and Equipment, Construction in Process was initially reported as zero, and in the
    corresponding roll-forward schedule, the balance was $360,966.

•   In Footnote 7, Accumulated Postemployment Benefit Plan, the Board initially understated the accrued
    postemployment benefits costs for FY2006. The Board originally reported $1,828,000. However, this amount
    did not reflect the external actuary’s revised calculation, which resulted in an upward adjustment of
    $134,000.

The Board subsequently made all necessary adjustments in the financial statements.

Recommendations

To strengthen internal controls over financial reporting, we recommend that the Board:

•   Strengthen the control process over the initial input and review of disbursement transactions to ensure that
    they are properly coded and recorded in the general ledger. We also recommend that management conduct
    periodic training for all relevant personnel, including end users, to help ensure the proper use of general
    ledger accounts.

•   Enhance the process for determining the accrued annual leave to ensure that the reports generated include the
    appropriate amounts as of the end of the reporting period. The process should include matching a selection of
    employees’ leave balances and other information included in the report to data in the Board’s Human
    Resources system.

•   Implement policies and procedures that require the calculation and reconciliation of amounts due from BIS
    on a regular basis. Once amounts due are determined, the applicable adjustments should be promptly
    recorded in the general ledger.

•   Enhance its policies and procedures to include a documented periodic review and analysis of all accounts
    receivables, to determine if an allowance is required or if the amounts should be written off. Further,
    management should also review the accounting treatment required for all transactions.



                                                     21                                             (Continued)
                                                                                                         Exhibit I

                   BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                                              Significant Deficiency

                                               December 31, 2006


•   Strengthen its policies and procedures to improve communication between the divisions and the accounting
    staff to ensure the appropriate accounting entries for property transactions are recorded timely in the general
    ledger. The communications should include, but not be limited to: when the asset was placed in service, the
    cost of the asset, the asset’s location and tag number, and any additional information necessary for the
    accounting division to make the appropriate entries. The Board should also enhance its review and approval
    procedures over property transactions to ensure that the appropriate entries have been recorded.

•   Strengthen its process over the preparation and review of the financial statements to ensure information is
    accurately reported.

Management’s Response

KPMG offers six recommendations aimed at strengthening the Board’s internal controls over financial reporting.
In its discussion of these recommendations and the supporting audit findings, KPMG does not consider any
individual finding to be a significant deficiency. In combination, however, KPMG concludes that the audit
findings represent a significant deficiency. While management does not concur with this conclusion, we do agree
that KPMG’s recommendations will strengthen the Board’s system of internal controls, and we will implement
the recommended actions.




                                                      22
                                                                                     Exhibit II

           BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

                STATUS OF PRIOR YEAR REPORTABLE CONDITION

                                    December 31, 2006




       Reported                         Prior Year                             2006 Status
        Issue                        Recommendation
Improvement is needed in Internal Control over Financial Reporting

Control over accounts 1. Establish policies and procedures for Significant Deficiency
payable and accrued      processing year-end accounts payables (see revised comment
liabilities              and accruals to include the requirements in Exhibit I).
                         for management to review and approve all
                         entries and supporting documents before
                         they are recorded. Management should
                         also perform a review of the year-end
                         accounts payable listings and subsequent
                         disbursements to ensure that the
                         transactions reported at year end are
                         appropriately      stated.   Further,   a
                         reconciliation of the GSA account should
                         be performed timely, to identify any
                         discrepancies on the invoices received.


Control of Census Data   2. Confirm the data used by the actuary in Completed.
                            the pension liability calculation prior to
                            recording the entries in the general ledger.


                         3. Implement recommendations made by the         Substantially resolved.
                            OIG in their report titled “Evaluation of     See revised comment in
                            Service Credit Computations.”          This   the 2006 management
                            would include performing periodic             letter.
                            reconciliations of the census data between
                            the Board’s system and the data used by
                            the actuary; reducing or eliminating the
                            number of data transcriptions; requiring
                            automated verifications for all census data
                            transmissions; and updating the existing
                            service credit form to clearly document all
                            prior government service.




                                            23
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


To the Board of Governors of the Federal Reserve System:

We have audited the balance sheets of the Board of Governors of the Federal Reserve System (the Board)
as of December 31, 2006 and 2005, and the related statements of revenues and expenses and changes in
cumulative results of operations, and cash flows (hereinafter referred to as “financial statements”) for the
years then ended, and have issued our report thereon dated April 17, 2007.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement.

The management of the Board is responsible for complying with laws, regulations, and contracts applicable
to the Board. As part of obtaining reasonable assurance about whether the Board’s financial statements are
free of material misstatement, we performed tests of the Board’s compliance with certain provisions of
laws, regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, and
contracts applicable to the Board. However, providing an opinion on compliance with those provisions was
not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing Standards.

This report is intended solely for the information and use of the Board’s management, the Office of
Inspector General, the U.S. Government Accountability Office, and the U.S. Congress and is not intended
to be and should not be used by anyone other than these specified parties.




April 17, 2007




                                                               24
                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss cooperative.
